ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVE., STE 11000
SAN FRANCISCO, CA 94102

Telephone: (415) 510-3919
E-Mail: Samuel.Harbourt@doj.ca.gov

May 4, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

North American Meat Institute v. Bonta, No. 20-1215
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 26, 2021. On April
22, 2021, the Court called for a response from both the state respondents (Attorney General Rob
Bonta, et al.) and the private intervenor respondents (Humane Society of the United States,
Animal Legal Defense Fund, et al.).1 Those responses are presently due on May 24, 2021.
Pursuant to Rule 30.4, the state respondents respectfully request that the time for filing a
response be extended by 30 days, up to and including Wednesday, June 23, 2021. We are
informed by counsel for petitioner that “Petitioner does not consent (and opposes) Respondents’
request for an extension of time to file briefs in opposition.”
Undersigned counsel is also lead counsel in several other pending cases that have limited,
and continue to limit, his availability to prepare the brief in opposition in this case. Counsel is
currently preparing respondent’s brief in opposition in Sowinski v. California Air Resources
Board, No. 20-1339, a patent case presenting a question regarding preclusion issues, which is
also due on May 24, 2021. At the same time, he is preparing the State’s merits brief in the
California Supreme Court in People v. Martinez, No. S267138, a First Amendment case that
demands substantial historical and legal research. That brief is currently due May 17, 2021. He
is also the lead deputy solicitor general advising on a number of matters related to the COVID-19
pandemic, including South Bay United Pentecostal Church v. Newsom, No. 3:20-cv-00865-BASAHG (S.D. Cal.), Harvest Rock Church v. Newsom, No. 20-56357 (9th Cir.), and Tandon v.
Newsom, No. 21-15228 (9th Cir.). In light of those and other existing responsibilities, an
extension of time would better enable undersigned counsel to prepare a response that would be

Both the state respondents and the private respondents filed forms waiving responses in
this case, although the state respondents’ waiver form does not currently appear on the Court’s
electronic docket. That form was not electronically filed because the assigned attorney who
submitted the form was not a member of the Supreme Court bar; it was mailed to the Court and
electronically served on the other parties on March 11, 2021.
1

May 4, 2021
Page 2
most helpful to the Court—including by addressing any pertinent arguments raised in the amicus
brief submitted in support of petitioner by 20 States on March 29, 2021.
An extension of time would also allow adequate time for internal review and revision
within the Office of the Solicitor General and the Office of the Attorney General. The Solicitor
General supervises and revises all submissions to this Court and has a number of competing
obligations on his time during this period. For example, he is responsible for revising briefs in
opposition to certiorari in the Sowinski case (discussed above) and in Rodriguez v. Newsom,
No. 20-1100, in which the Court requested a response to a petition challenging the
constitutionality of California’s system for awarding presidential electors. He will also need to
devote substantial attention to briefing in other courts, such as the State’s merits brief in a
California Supreme Court case presenting an equal protection challenge to California’s parole
regime for youth offenders, People v. Williams, No. S262229 (due May 19), and the State’s
supplemental brief in a proceeding in which an en banc panel of the Ninth Circuit will review the
constitutionality of California’s restrictions on large-capacity magazines, Duncan v. Bonta,
No. 19-55376 (due May 14). The requested extension would allow the Solicitor General to
devote sufficient time to the response in this case to ensure the filing of a brief that will be most
helpful to the Court. At the same time, it will allow for greater opportunity to consult and
coordinate on this filing with the executive office of California’s new Attorney General, Rob
Bonta, who did not assume his position until April 23, 2021.
Finally, the requested 30-day extension would not unduly delay resolution of this case.
This is respondents’ first requested extension; no further extension requests are anticipated. As
petitioner noted below, some of the challenged restrictions have already taken effect while other
challenged restrictions are scheduled to take effect in January 2022. See C.A. Appellant’s
Br. 47-49. Given the current timing, however, under the Court’s ordinary schedule, if the Court
were to grant plenary review it would not be able to resolve the case before the October 2021
Term in any event.
Accordingly, the state respondents respectfully request a 30-day extension, up to and
including Wednesday, June 23, 2021.
Sincerely,
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
For

ROB BONTA
Attorney General

